                            SOCIAL SECURITY
                                                                        Inspector General
                                     March 11, 2003


MEMORANDUM FOR THE HONORABLE GREGORY H. FRIEDMAN
                   INSPECTOR GENERAL
                   DEPARTMENT OF ENERGY

SUBJECT: Federal Agencies’ Controls over the Access, Disclosure and Use of Social
Security Numbers by External Entities


Because of concerns related to perceived widespread sharing of personal identifying
information and occurrences of identity theft, the Chairman of the Subcommittee on
Social Security, House Ways and Means Committee, asked my office to look at the way
Federal agencies disseminate and control the use of Social Security numbers (SSN). In
consultation with the President's Council on Integrity and Efficiency, my office agreed to
serve as the audit lead for participating Office of Inspectors General (OIG) and prepare
the final report.

Each OIG assessed its respective agency's controls over the access, disclosure and
use of SSNs by external entities. Specifically, OIGs determined whether their agencies
had adequate controls over

   ·   disclosures of SSNs to external entities,

   ·   contractors' access to and use of SSNs,

   ·   non-Government/non-contractor entities' access to and use of SSNs, and

   ·   access to individuals' SSNs maintained in agency databases.

We received information from 15 OIGs. Most OIGs reported their agencies had
inadequate controls over (1) contractors' access to and use of SSNs and (2) access to
individuals' SSNs maintained in agency databases. Based on this information, we
concluded that Federal agencies would benefit by strengthening some of their controls
over the access, disclosure and use of SSNs by external entities.

Most OIGs either have issued or will be issuing individual reports to their respective
departments or agencies. These reports make recommendations for corrective actions
at the department or agency level.




              SOCIAL SECURITY ADMINISTRATION       BALTIMORE MD 21235-0001
Page 2 – The Honorable Gregory H. Friedman



If you have any questions regarding this report, please contact me or have your staff
contact Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.

                                               Sincerely,




                                               James G. Huse, Jr.

Attachment
           PRESIDENT'S COUNCIL on INTEGRITY & EFFICIENCY

                                                     March 17, 2003


MEMORANDUM FOR THE PRESIDENT'S COUNCIL ON INTEGRITY
            AND EFFICIENCY MEMBERS



FROM:
                   Gaston L. Gianni, Jr.
                   Vice Chair



SUBJECT:           Federal Agencies' Controls over the Access, Disclosure and
                   Use of Social Security Numbers by External Entities


Due to public concern over the sharing of personal information and instances of identity theft,
the Honorable Clay Shaw, Chairman of the Subcommittee on Social Security, House Ways and
Means Committee, requested a review on how Federal agencies disseminate and control the use
of Social Security numbers (SSN). Fifteen Offices of Inspector General (OIGs) participated in
this joint review to assess SSN controls within their respective agency.

The SSN was created in 1936 as a means of tracking workers' earnings and eligibility for Social
Security benefits. However, over the years, the SSN has become a de facto national identifier
used by Federal agencies, State and local governments, and private organizations. While a
number of laws and regulations require the use of SSNs for various Federal programs, they
generally impose limitations on how these SSNs may be used.

The expanded use of the SSN as a national identifier provides a tempting motive for many
unscrupulous individuals to acquire an SSN and use it for illegal purposes. While no one can
fully prevent SSN misuse, Federal agencies have some responsibility to limit the risk of
unauthorized disclosure of SSN information.

Under the leadership of the Social Security Administration's OIG, the attached review, Federal
Agencies' Controls over the Access, Disclosure and Use of Social Security Numbers by External
Entities, presents the results of the President's Council on Integrity said Efficiency's joint review to
determine whether Federal agencies had adequate controls over:

  •   contractors' access to and use of SSNs,
  •   access to individuals' SSNs maintained in agency databases,
     •   non-Government/non-contractor entities' access and use of SSNs, and
     •   disclosures of SSNs to external entities.

Most participating OIGs reported their agencies had inadequate controls over (1) contractors'
access to and use of SSNs and (2) access to individuals' SSNs maintained in agency databases.
Based on this information, \ve concluded that Federal agencies would benefit from strengthening
some of their controls over the access, disclosure and use of SSNs by external entities.

Attachment




                                                 2
          PRESIDENT'S COUNCIL on INTEGRITY & EFFICIENCY
                                        March 11,2003



MEMORANDUM FOR THE HONORABLE GASTON L. GIANNI, JR.
              VICE CHAIR
              PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY


FROM:                    Gregory H. Friedman
                         Chair, Audit Committee

SUBJECT:                 Federal Agencies' Controls over the Access, Disclosure and Use of
                         Social Security Numbers by External Entities


At the request of the House Ways and Means Committee, Subcommittee on Social Security, and
discussions with the President's Council on Integrity and Efficiency (PCIE), the Social Security
Administration's Office of the Inspector General (OIG) led 15 OIGs in determining whether
their respective agencies had adequate controls over:

•   contractors' access to and use of Social Security numbers (SSN),

•   access to individuals' SSNs maintained in agency databases,

•   non-Government/non-contractor entities' access and use of SSNs, and

•   disclosures of SSNs to external entities.

The attached report, Federal Agencies' Controls over the Access, Disclosure and Use of Social
Security Numbers by External Entities, provides the results of the joint audit conducted under the
direction of the PCIE's Audit Committee. Based on the conditions identified during the audit,
we concluded that Federal agencies would benefit by strengthening some of their controls over
the access, disclosure and use of SSNs by external entities. Most participating OIGs reported
their agencies had inadequate controls over (1) contractors' access to and use of SSNs and (2)
access to individuals' SSNs maintained in agency databases. The participating OIGs either have
issued or will be issuing individual reports to their respective departments or agencies. These
reports make recommendations for corrective actions at the department or agency level.


Attachment
      Report to The President's Council on Integrity
                      and Efficiency


Federal Agencies’ Controls over the Access, Disclosure and
   use of Social Security Numbers by External Entities




               Social Security Administration
               Office of the Inspector General
                       March 11, 2003
                                                                       Introduction
Objective              Our objective was to provide the President’s Council on Integrity
                       and Efficiency (PCIE) with an assessment of Federal agencies’
                       controls over the access, disclosure and use of Social Security
                       numbers (SSN) by external entities.

Background             The SSN was created in 1936 as a means of tracking workers’
                       earnings and eligibility for Social Security benefits. However, over
                       the years, the SSN has become a de facto national identifier used
                       by Federal agencies, State and local governments, and private
                       organizations. While a number of laws and regulations require the
                       use of SSNs for various Federal programs, they generally impose
                       limitations on how these SSNs may be used.

                       Although no single Federal law regulates the overall use and
                       disclosure of SSNs by Federal agencies, the Freedom of
                       Information Act of 1966, the Privacy Act of 1974, and the Social
                       Security Act Amendments of 1990 generally govern disclosure and
                       use of SSNs (Appendix A). In addition, a number of Federal laws
                       lay out a framework for Federal agencies to follow when they
                       establish information security programs that protect sensitive
                       personal information, such as SSNs.1

                       The expanded use of the SSN as a national identifier provides a
                       tempting motive for many unscrupulous individuals to acquire an
                       SSN and use it for illegal purposes. While no one can fully prevent
                       SSN misuse, Federal agencies have some responsibility to limit the
                       risk of unauthorized disclosure of SSN information. Because of
                       concerns related to perceived widespread sharing of personal
                       information and occurrences of identity theft, congressional
                       requesters asked the General Accounting Office (GAO) to study
                       how, and to what extent, Federal, State and local government
                       agencies use individuals' SSNs and how these entities safeguard
                       records or documents containing those SSNs.2 The information the


1
 The Government Information Security Reform provisions of the Fiscal Year 2001 Defense Authorization
Act, Pub. L. No. 106-398, Subtitle G (2000); the Clinger-Cohen Act of 1996, Pub. L. No. 104-106,
Division D and E (1996); the Paperwork Reduction Act of 1995, Pub. L. No. 104-13 (1995); the
Computer Security Act of 1987, Pub. L. No. 100-235 (1988). See also Office of Management and Budget
guidance, such as Circular A-130.
2
 Social Security Numbers: Government Benefits from SSN Use but Could Provide Better Safeguards
(GAO-02-352, May 2002).


                                                 1
                         agencies provided was self-reported, and GAO did not verify the
                         responses.

                         The Chairman of the Subcommittee on Social Security, House
                         Ways and Means Committee, requested that the Social Security
                         Administration's Office of the Inspector General (OIG) look at the
                         way Federal agencies disseminate and control the use of SSNs.
                         After consultation with the PCIE, we agreed to serve as audit lead
                         for 15 participating OIGs (Appendix B) and prepare the final report.
                         As part of our review, we coordinated with GAO to avoid duplication
                         of effort. This report serves as a follow-up to GAO's study and
                         provides a more in-depth analysis of Federal agencies’ SSN
                         controls related to contractor access, databases, non-Government
                         access, and disclosure.

                         Most OIGs either have issued or will be issuing individual reports to
                         their respective departments or agencies. The individual OIG
                         reports make recommendations for corrective actions at the
                         department or agency level.

Scope and                To accomplish the objective, OIGs
Methodology
                         •   reviewed controls over the use and protection of SSNs within
                             their respective agency;

                         •   interviewed agency personnel responsible for controls over the
                             access, disclosure and use of SSNs;

                         •   reviewed relevant agency procedures and practices;

                         •   reviewed applicable laws and regulations;

                         •   observed selected contractor activities; and

                         •   reviewed relevant agency audit reports.

                         Each OIG focused its work on one program within its respective
                         agency.3 As such, the findings in this report should not be
                         extrapolated to all programs within each agency. See Appendix C
                         for the specific agency program each OIG reviewed.




3
    The Department of Defense assessed SSN controls for three programs.


                                                   2
                             Results of Review
Despite Federal agencies’ safeguards to prevent improper access,
disclosure and use of SSNs by external entities, agencies remained
at-risk to such activity. Of the 15 agencies reviewed,

•   14 lacked adequate controls over contractors' access to and use
    of SSNs,

•   9 had inadequate controls over access to SSNs maintained in
    their computer systems,

•   2 did not have adequate controls over non-Government and/or
    non-contractor entities' access to and use of SSNs, and

•   1 did not make legal and informed SSN disclosures.

Federal Agencies Placed Safeguard Requirements
on Contractors But Lacked Adequate SSN Controls
Federal agencies often use contractors to assist them in carrying
out their statutory responsibilities. These contracts often contain
standard language related to safeguarding personal information.
Contracts may also contain penalty provisions for contractor misuse
of information. Federal agencies incorporate different practices to
ensure they have appropriate controls over contractor access to
and use of SSNs. These include, but are not limited to, passwords
and computer identifications; access to information on a need to
know basis; periodic review of current computer users; staff and
contractor confidentiality agreements; security awareness training;
and secure work areas.

Although Federal agencies generally placed these safeguard
requirements on contractors, 14 (93 percent) of 15 OIGs reported
inadequate controls over contractors’ access to and use of SSNs.
For example, eight agencies had not performed site inspections to
ensure contractors had upheld their obligation to protect the
confidentiality and security of SSNs. One agency, which performed
on-site inspections, did not adequately address the security of
personal identifying information, such as SSNs. Moreover, two
OIGs raised concerns about controls over contractors’ security
practices for file storage; one noted instances in which contractors
maintained personal identifying information in unlocked file cabinets
or storage rooms, and another noted that several agency



                       3
contractors left sensitive records on desktops or open shelves after
normal working hours.

Two OIGs also reported problems regarding contractors’ access to
Federal agencies' databases. For example, these OIGs identified
instances in which their agencies granted system access to
contractors before they completed background security
investigations. Additionally, one agency lacked adequate controls
for deleting contractors’ system access after they left the agency.
Moreover, one agency did not have a process in place that
systematically identified contractors who had access to sensitive
information.

Two OIGs also identified instances in which agency contracts
lacked the Privacy Act notice or the agency had no contract at all.
For example, 1 agency had omitted the Privacy Act clause in
11 of 16 contracts. Another OIG noted instances in which
contractors had access to personal data, although no Memorandum
of Understanding existed between the agency and the contractor.
Appendix C identifies the OIGs that reported their respective
agencies had inadequate controls over contractors’ access to and
use of SSNs.

Federal Agencies Placed Controls over Access to
Individuals’ SSNs Maintained in Their Databases, But
Weaknesses Existed
Federal agencies that allowed access to their databases generally
had standard information security controls in place. Agency
controls included, but were not limited to, security clearances
before granting computer access, computer access controlled by
job title, unique user identification and passwords, firewalls,
encrypted data transportation, intrusion detection systems, and
physical access controls. In addition, some agencies emphasized
the users’ responsibility to safeguard data through written
agreements and computer screen Privacy Act notices. Although
agencies limited access to their databases primarily to employees,
most agencies also authorized systems access to external entities
for specific purposes. For example, some agencies allowed other
agencies access to their databases to assist in beneficiary eligibility
determinations and provide such services as software design and
support and data processing.

Despite Federal agencies’ safeguards, 9 (60 percent) of 15 OIGs
reported their respective agencies had inadequate controls over
access to SSNs maintained in their databases. For example, one


                        4
                          agency granted systems access to its employees before completing
                          background security checks while others were not monitoring user
                          access to ensure users were still current employees or contractors.
                          Other identified weaknesses included physical access controls,
                          implementation and monitoring of technical security configuration
                          standards and monitoring security violations. Because of the
                          sensitive nature of information security issues, we chose to
                          withhold detailed descriptions of information security control
                          weaknesses identified by OIGs. Appendix C identifies the OIGs
                          that reported their respective agencies had inadequate controls
                          over access to SSNs maintained in their databases.

                          Federal Agencies Generally Had Adequate Controls
                          over Non-Government/Non-Contractor Entities'
                          Access to and Use of SSNs
                          Federal agencies generally granted access to and use of SSNs to
                          those entities whose requests fell under the Freedom of Information
                          or Privacy Act exclusions. Two OIGs reported their agencies also
                          granted life insurance and/or pension companies access to
                          deceased individuals' SSNs.4 However, about half of the OIGs
                          reported their respective agencies did not grant non-Government
                          and/or non-contractor entities' access to and use of SSNs.

                          Two (13 percent) of 15 OIGs reported their agencies did not have
                          adequate controls over non-Government/non-contractor entities'
                          access to and use of SSNs. One OIG reported its agency had no
                          standard contract language to include privacy act safeguards.
                          Another OIG reported its agency did not establish financial
                          standards for outside parties to meet prior to gaining access to data
                          containing SSN information. Appendix C identifies the OIGs that
                          reported their respective agencies had inadequate controls over
                          non-Government and/or non-contractor entities' access to and use
                          of SSNs.

                          Federal Agencies Generally Made Legal and Informed
                          Disclosures of SSNs to External Entities
                          One (7 percent) of 15 OIGs reported its agency did not make legal
                          and informed SSN disclosures. This OIG identified instances in
                          which the agency did not inform research study participants that
                          providing their SSNs was voluntary. The remaining OIGs reported
                          their respective agencies generally made legal and informed SSN

4
    The Privacy Act does not apply to deceased individuals.



                                                      5
                       disclosure to external entities.5 In doing so, agencies included
                       Privacy Act notices on forms and had matching agreements with
                       other entities that outlined the agencies’ roles in protecting personal
                       identifying information. Federal agencies also informed individuals
                       when they needed to provide their SSN to apply for benefits, by
                       what legal authority they were requesting the SSN, and how the
                       agency was going to use the SSN. Federal agencies disclosed
                       individuals’ SSNs to various external entities, including Federal and
                       State agencies, insurance companies, universities and researchers.

                       Although the 14 remaining OIGs reported their agencies generally
                       made legal and informed SSN disclosures, they identified instances
                       in which agency practices increased the risk external entities may
                       have improperly obtained and misused SSNs. For example, one
                       OIG identified instances in which its agency unnecessarily
                       displayed SSNs on documents it sent to external entities that may
                       not have had a need to know. Another OIG identified instances in
                       which its agency inadvertently omitted the Privacy Act notice on
                       one of its forms, and another OIG identified instances in which its
                       agency provided SSNs to another agency in error. Appendix C
                       identifies the OIG that reported its agency made improper
                       disclosures of SSNs to external entities.




5
 For purposes of this report, we consider SSN disclosure to have occurred when an agency provides an
SSN to an external entity that did not already have it.


                                                  6
                                            Conclusion
Some Federal agencies are at-risk for improper access, disclosure
and use of SSNs by external entities, despite safeguards to prevent
such activity. We recognize Federal agencies’ efforts cannot
eliminate the potential that unscrupulous individuals may
inappropriately acquire and misuse SSNs. Nonetheless, we
believe each Federal agency has a duty to safeguard the integrity
of SSNs by reducing opportunities for external entities to improperly
obtain and misuse the SSNs. Given the potential risk for
individuals to engage in such activity, we believe Federal agencies
would benefit by strengthening some of their controls over the
access, disclosure and use of SSNs by external entities.




                       7
                                                                     Appendix A
Federal Laws that Restrict Disclosure of the
Social Security Number
The following Federal laws establish a framework for restricting Social Security number
(SSN) disclosure.1

The Freedom of Information Act of 1966 (5 U.S.C. 552)

The Freedom of Information Act (FOIA) establishes a presumption that records in the
possession of Executive Branch agencies and departments are accessible to the
people. FOIA, as amended, provides that the public has a right of access to Federal
agency records, except for those records that are protected from disclosure by nine
stated exemptions. One of these exemptions allows the Government to withhold
information about individuals in personnel and medical files and similar files when the
disclosure would constitute a clearly unwarranted invasion of personal privacy.
According to Department of Justice guidance, agencies should withhold SSNs under
this FOIA exemption. This statute does not apply to State and local governments.

The Privacy Act of 1974 (5 U.S.C. 552a)

The Privacy Act regulates Federal agencies’ collection, maintenance, use and
disclosure of personal information maintained by agencies in a system of records. The
Act prohibits the disclosure of any record contained in a system of records unless the
disclosure is made based on a written request or prior written consent of the person to
whom the records pertain or is otherwise authorized by law. The Act authorizes
12 exceptions under which an agency may disclose information in its records.

The Act contains a number of additional provisions that restrict Federal agencies’ use of
personal information. For example, an agency must maintain in its records only such
information about an individual as is relevant and necessary to accomplish a purpose
required by statute or Executive Order of the President, and the agency must collect
information to the greatest extent practicable directly from the individual when the
information may result in an adverse determination about an individual’s rights, benefits
and privileges under Federal programs.




1
 Summarized from Social Security Numbers: Government Benefits from SSN Use but Could Provide
Better Safeguards (GAO-02-352, May 2002).


                                              A-1
The Social Security Act Amendments of 1990 (42 U.S.C. 405(c)(2)(C)(viii))2

The Social Security Act bars disclosure by Federal, State and local governments of
SSNs collected pursuant to laws enacted on or after October 1, 1990. This provision of
the Act also contains criminal penalties for “unauthorized willful disclosures” of SSNs.
Because the Act specifically cites willful disclosures, careless behavior or inadequate
safeguards may not be subject to criminal prosecution. Moreover, applicability of the
provision is further limited in many instances because it only applies to disclosure of
SSNs collected in accordance with laws enacted on or after October 1, 1990. For SSNs
collected by Federal entities pursuant to laws enacted before October 1, 1990, this
provision does not apply and therefore would not restrict disclosing the SSN. Finally,
because the provision applies to disclosure of SSNs collected pursuant to laws requiring
SSNs, it is not clear whether the provision also applies to disclosure of SSNs collected
without a statutory requirement to do so. This provision applies to Federal, State and
local governmental agencies; however, the applicability to courts is not clearly spelled
out in the law.




2
    Pub. L. No. 101-624 §2201, 104 Stat. 3359, 3951 (1990).


                                                   A-2
                                                    Appendix B
Participating Offices of Inspector General
Department of Agriculture

Department of Defense

Department of Education

Department of Health and Human Services

Department of Housing and Urban Development

Department of Labor

Department of the Treasury

Environmental Protection Agency

Federal Deposit Insurance Corporation

Nuclear Regulatory Commission

Office of Personnel Management

Railroad Retirement Board

Small Business Administration

Social Security Administration

Treasury Inspector General for Tax Administration
                                                                                                                   Appendix C
Summary of Inadequate Controls Identified
by Offices of Inspector General (OIG)

                                                                     INADEQUATE CONTROLS IDENTIFIED BY OIGs
    Federal Agency
    and Program(s) Reviewed                                                                                                    Legal and
                                                                                      Access to SSNs   Non-Government/          Informed
                                                                 Contractor            Maintained in    Non-contractor        Disclosure of
                                                              Access and Use of          Agency         Access and Use       SSNs to External
                                                                   SSNs                 Databases          of SSNs               Entities

    Department of Agriculture: Food Stamp Program                      X1                  X1
    Department of Defense: Defense Manpower Data
    Center; Army and Air Force Exchange Service,                       X2                  X3
    and Defense Security Service

    Department of Education: Pell Grant Program                        X                    X
    Department of Health and Human Services: Food                      X                                                             X
    and Drug Administration

    Department of Housing and Urban Development:                       X
    Office of Housing

1
    Inadequate controls identified at the State/local levels of the Food Stamp Program.
2
    Inadequate controls over contractor access and use of SSNs identified in the following Department of Defense agencies: Army and Air Force
     Exchange Service and Defense Security Service.
3
    Inadequate controls over access to SSNs maintained in its databases identified at the Defense Manpower Data Center.


                                                                            C-1
                                                                Inadequate Controls Identified by OIGs

Federal Agency                                                                                              Legal and
and Program(s) Reviewed                                                Access to SSNs   Non-Government/      Informed
                                                      Contractor        Maintained in    Non-contractor    Disclosure of
                                                   Access and Use of      Agency         Access and Use   SSNs to External
                                                        SSNs             Databases          of SSNs           Entities

Department of Labor: Federal Employee                     X                                   X
Compensation Act Program

Department of the Treasury: Financial                     X                  X
Management Service

Environmental Protection Agency: Financial
Management and Financial Services Divisions

Federal Deposit Insurance Corporation                     X                                   X
Nuclear Regulatory Commission                             X                  X
Office of Personnel Management: Retirement and
Insurance Service, Office of Merit Systems                X                  X
Oversight and Effectiveness, and Investigations
Service

Railroad Retirement Board                                 X                  X
Small Business Administration                             X
Social Security Administration: Title II Program          X                  X
Treasury Inspector General for Tax                        X                  X
Administration: Internal Revenue Service
                     TOTALS                               14                 9                2                  1



                                                               C-2
